         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Audit Report




       Information Security Series:
       Security Practices

       Safe Drinking Water Information
       System

       Report No. 2006-P-00021   


       March 30, 2006     

Report Contributors:      Rudolph M. Brevard
                          Charles Dade
                          Neven Morcos
                          Jefferson Gilkeson
                          Scott Sammons




Abbreviations

ASSERT       Automated Security Self-Evaluation and Remediation Tracking Tool
C&A          Certification and Accreditation
EPA          U.S. Environmental Protection Agency
FISMA        Federal Information Security Management Act
NCC          National Computer Center
OIG          Office of Inspector General
OMB          Office of Management and Budget
OW           Office of Water
POA&M        Plan of Action and Milestones
RTP          Research Triangle Park
SDWIS        Safe Drinking Water Information System
                       U.S. Environmental Protection Agency                                                2006-P-00021

                       Office of Inspector General                                                        March 30, 2006





                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review           Information Security Series: Security Practices
As part of our annual audit of
                                 Safe Drinking Water Information System
the Environmental Protection
Agency’s (EPA’s)                 What We Found
compliance with the Federal
Information Security             We found that the Office of Water (OW) substantially complied with many of the
Management Act (FISMA),          information security controls reviewed and had implemented practices to ensure
we reviewed the security         production servers are monitored for known vulnerabilities, physical access controls
practices for a sample of key    are adequate, and personnel with significant security responsibility completed the
Agency information systems,      Agency’s recommended specialized security training. However, we found that the
including the Office of          Safe Drinking Water Information System (SDWIS), a major application, did not have
Water’s (OW’s) Safe              complete certification and accreditation documents. In addition, the contingency plan
Drinking Water Information       did not contain all elements specified by Federal and Agency requirements. OW
System (SDWIS).                  officials could have discovered the identified weaknesses had the office reviewed its
                                 implemented practices for completing these requirements. As a result, SDWIS had
Background                       security control weaknesses that could affect OW’s operations, assets, and individuals.

FISMA requires agencies to       What We Recommend
develop policies and
procedures commensurate          We recommend that the SDWIS System Owner:
with the risk and magnitude
of harm resulting from the       ¾	 Complete the independent review of security controls, complete a full formal risk
malicious or unintentional          assessment of SDWIS, and update the certification and accreditation package.
damage to the Agency’s
information assets. SDWIS        ¾	 Update and test the SDWIS contingency plan and implement a process to
supports EPA’s initiative to        periodically test and maintain the plan.
protect public health by
allowing EPA to provide a        ¾	 Develop a Plan of Action and Milestones in the Agency’s security weakness
repository of national public       tracking system (ASSERT database) for all noted deficiencies.
drinking water data to
interested stakeholders.         We recommend that the OW Information Security Officer:

                                 ¾ Conduct a review of OW’s information security oversight processes.
For further information,
contact our Office of
Congressional and Public
                                 OW agreed with the report’s findings, indicated that it was in the process of
Liaison at (202) 566-2391.       completing the risk assessment, and expected to complete the assessment by the end of
                                 March 2006. OW also stated it would update and test the SDWIS contingency plan as
To view the full report,         a follow-up to the formal risk assessment. OW expressed concerns that some of the
click on the following link:     findings could give a misleading picture of the security of SDWIS at the time of our
www.epa.gov/oig/reports/2006
/20060330-2006-P-00021.pdf       review and we updated the report to reflect efforts OW took to address the findings.
                                 OW’s complete response is in Appendix A.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL



                                         March 30, 2006

MEMORANDUM

SUBJECT: 	            Information Security Series: Security Practices
                      Safe Drinking Water Information System
                      Report No. 2006-P-00021

FROM: 	               Rudolph M. Brevard /s/
                      Director, Information Technology Audits

TO:        	          Benjamin H. Grumbles
                      Assistant Administrator for Water


This is our final audit report on the information security controls audit of the Office of Water’s
Safe Drinking Water Information System. This audit report contains findings that describe
problems the Office of Inspector General (OIG) has identified and corrective actions the OIG
recommends. This audit report represents the opinion of the OIG, and the findings in this audit
report do not necessarily represent the final Environmental Protection Agency (EPA) position.
EPA managers, in accordance with established EPA audit resolution procedures, will make final
determinations on matters in this audit report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objection to further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at (202) 566-0893.
                                       Table of Contents 

At a Glance

Purpose of Audit…………………………………………………………………………………...                                                                                       1

Background…………………………………………………………………………………………                                                                                             1

Scope and Methodology .....................................................................................................              2

SDWIS’ Compliance with Federal and Agency Security Requirements ........................                                                 3

     Certification and Accreditation ………………….. .............................................................                             4
     Contingency Planning ………………………………………………………………………….                                                                                  4

Recommendations...............................................................................................................           5

Agency Comments and OIG Evaluation ............................................................................                          5



Appendices
A     Agency Response to Draft Report .............................................................................                      7    


B     Distribution ...................................................................................................................   9

Purpose of Audit
          Our objective was to determine whether the Office of Water’s (OW’s) Safe
          Drinking Water Information System (SDWIS) complied with Federal and Agency
          information system security requirements. SDWIS supports EPA’s initiative to
          protect public health by allowing EPA to provide a repository of national public
          drinking water data to interested stakeholders to enable them to monitor the
          quality of the Nation’s drinking water.

Background
          We conducted this audit pursuant to Title III of the E-Government Act of 2002,
          commonly referred to as the Federal Information Security Management Act
          (FISMA). FISMA requires the Agency to develop policies and procedures
          commensurate with the risk and magnitude of harm resulting from the malicious
          or unintentional damage to the Agency’s information assets. EPA’s Chief
          Information Officer is responsible for establishing and overseeing an Agency-
          wide program to ensure the security of its network infrastructure consistent with
          these requirements. Program offices are responsible for managing the
          implementation of these security requirements within their respective
          organizations.

          Program offices should create a Plan of Action and Milestones (POA&M) when it
          identifies security control weaknesses. The POA&M, which documents the
          planned remediation process, is recorded in the Agency’s Automated Security
          Self-Evaluation and Remediation Tracking (ASSERT) tool. ASSERT is used to
          centrally track remediation of weaknesses associated with information systems
          and serves as the Agency’s official record for POA&M activity.

          FISMA requires the Inspector General, along with the EPA Administrator, to
          report annually to the Office of Management and Budget (OMB) on the status of
          EPA’s information security program. The OIG provided the results of its review
          to OMB in Report No. 2006-S-00001, Federal Information Security Management
          Act, Fiscal Year 2005 Status of EPA’s Computer Security Program.

          During our annual FISMA review, we selected one major application each from
          five EPA program offices and reviewed the office’s security practices surrounding
          these applications. Our review noted instances where EPA could improve its
          security practices overall and the OIG reported the results to EPA’s Chief
          Information Officer in Report No. 2006-P-00002, EPA Could Improve Its
          Information Security by Strengthening Verification and Validation Processes.

          This audit report is one in a series of reports being issued to the five program
          offices that had an application reviewed. This report addresses findings and
          recommendations related to security practice weaknesses identified in OW. In
          particular, this report summarizes our results regarding how OW implemented


                                           1

         Federal and EPA information security policies and procedures. This report also
         includes our evaluation of how OW implemented, tested, and evaluated
         information security controls to ensure continued compliance with Federal and
         Agency requirements for selected security objectives. The Scope and
         Methodology section contains the specific security objectives we audited.

Scope and Methodology
         We conducted our field work from March 2005 to July 2005 at EPA Headquarters
         in Washington, DC, and the National Computer Center (NCC), Research Triangle
         Park (RTP), North Carolina. We interviewed Agency officials at both locations
         and contract employees at the NCC. We reviewed relevant Federal and Agency
         information security standards. We reviewed application security documentation
         to determine whether it complied with selected standards. We reviewed system
         configuration settings and conducted vulnerability testing of servers for known
         vulnerabilities. We reviewed training records for personnel with significant
         security responsibilities.

         During the audit, OW was operating two production versions of SDWIS:

              x	 SDWIS-current, a mainframe-based application hosted at the NCC in
                 RTP, North Carolina; and

              x	 SDWIS-modern, a Web-enabled, tiered application also hosted at the
                 NCC in RTP, North Carolina.

         OW replaced SDWIS-current with the SDWIS-modern system. When OW
         placed the SDWIS-modern system into production, the office operated it in
         parallel with the SDWIS-current application. We only evaluated the SDWIS-
         modern application for compliance with Federal and Agency requirements and all
         references to SDWIS, in this report, pertain to the SDWIS-modern application.

         We assessed the following security practices for SDWIS:

              x	 Security Certification and Accreditation (C&A) practices -- We
                 reviewed SDWIS’ C&A package to determine whether the security plan
                 was updated and re-approved at least every 3 years and the application
                 was reauthorized at least every 3 years, as required by OMB Circular
                 A-130 and EPA policy.

              x	 Application contingency plans -- We reviewed SDWIS’ contingency
                 planning practices to determine whether it complied with requirements
                 outlined in EPA Directive 2195A1 (EPA Information Security Manual),
                 National Institute of Standards and Technology Special Publication
                 800-34 (Contingency Planning Guide for Information Technology



                                         2

                  Systems), and EPA Procedures Document (Procedures for Implementing
                  Federal Information Technology Security Guidance and Best Practices).

              x	 Security controls -- We reviewed two areas of security controls (1)
                 system vulnerability monitoring, which included conducting
                 vulnerability testing, and (2) physical access controls. OW operates
                 SDWIS servers in its Washington, DC, Headquarters and at the NCC in
                 RTP. At the Headquarters office, we evaluated the location for both
                 system vulnerability monitoring and physical access controls. At the
                 NCC, we only evaluated system vulnerability monitoring. We did not
                 evaluate physical access controls at the NCC, because the NCC was
                 undergoing an audit of these controls at the time of our review. This
                 audit identified instances where EPA could improve its physical controls
                 at RTP and the OIG reported the results in Report No. 2006-P-00005,
                 EPA Could Improve Physical Access and Service
                 Continuity/Contingency Controls for Financial and Mixed-Financial
                 Systems Located at its Research Triangle Park Campus.

              x	 Annual Training Requirements -- We reviewed whether employees
                 with significant security responsibilities satisfied annual training
                 requirements.

         We conducted this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States.

SDWIS’ Compliance with Federal and Agency Security Requirements
         The SDWIS production servers were being monitored for known vulnerabilities,
         physical access controls were adequate, and personnel with significant security
         responsibility had completed the Agency’s recommended specialized security
         training. Our audit (1) noted that SDWIS had weaknesses related to key security
         practices, and (2) highlighted areas where OW should place more emphasis to
         comply with established information security requirements. OW officials could
         have discovered these weaknesses had they implemented procedures to ensure
         that Federal and Agency information security requirements were followed. In
         particular, SDWIS had the following information security planning weaknesses:

              x	 The C&A package did not contain a completed independent review of
                 SDWIS’ security controls and a completed full formal risk assessment.

              x	 The contingency plan did not contain fully developed essential elements
                 identified by Federal and Agency guidance and was not tested.

         Preparing and maintaining updated C&A documents and contingency plans help
         to ensure the Agency’s network infrastructure is adequately protected. These
         widely recognized preventive controls aid in reducing the likelihood that security


                                          3

incidents will occur and by not emphasizing these key security controls, OW
places the integrity and availability of SDWIS at risk. In addition, testing these
controls provides management with assurance that the controls are adequately
implemented and working as intended. For example, an inadequately designed
security control could result in a breach in SDWIS’ security and result in reduced
system availability or affect the integrity of the system’s data. This could hinder
the ability of Federal officials and other stakeholders to use SDWIS to monitor
the quality of the Nation’s drinking water.

Certification and Accreditation

We found areas where OW could implement more comprehensive procedures to
ensure C&A documents are complete. Specifically, the system owners had not
conducted an independent review of SDWIS’ security controls and performed a
full formal risk assessment of SDWIS prior to authorizing the application for
operation as required by Federal and Agency guidance.

The information used by OW officials to make the initial authorization decision is
contained in the SDWIS C&A package, which includes documents such as the
most recent system security plan, authorization for operation, test of implemented
security controls, and risk assessment. These documents support the OW risk
management process and are necessary for senior OW officials to decide whether
SDWIS’ security controls are sufficient, and if adjustments to security controls
are necessary before authorizing SDWIS for operation.

During our audit, OW was conducting a Capital Planning and Investment Control
review of SDWIS. OW officials indicated that the review highlighted the need to
conduct a risk assessment, and to prepare and implement a risk management plan
for all aspects of SDWIS. OW officials indicated an assessment would identify
weaknesses that need to be addressed, and that they will address these through a
process of defining each weakness and establishing a POA&M to deal with each
one. OW officials indicated the risk assessment would be completed in March
2006.

Contingency Planning
We found that OW could improve its contingency planning procedures for
SDWIS. Although OW had included a contingency planning section in the
SDWIS security plan, OW had not fully developed the plan to include essential
elements that make up an effective contingency plan as outlined in Federal and
Agency guidance. In addition, OW had not conducted a test of the contingency
planning procedures outlined in the security plan. OW stated that they would
update and test the SDWIS contingency plan as a follow-up to the formal risk
assessment performed during March 2006.




                                 4

         An effective contingency plan should include Supporting Information, a
         Notification/activation phase, a Recovery Phase and a Reconstitution phase.
         Federal and EPA standards require that plans be (1) reviewed and tested annually,
         and (2) updated as necessary when changes in business needs, technology, or new
         internal or external policies occur. Testing the plan would enable OW to become
         familiar with the recovery steps and help management identify where additional
         emphasis is needed.

Recommendations
         We recommend that the Safe Drinking Water Information System (SDWIS)
         System Owner:

            1.	 Complete the independent review of SDWIS’ security controls, complete a
                full formal risk assessment of SDWIS, and update the certification and
                accreditation package in accordance with Federal and Agency
                requirements.

            2.	 Update and test the SDWIS contingency plan in accordance with Federal
                and EPA requirements; implement a process to test the plan annually; and
                update the contingency plan whenever significant changes occur to the
                system, supported business processes, key personnel, or the contingency
                plan itself.

            3.	 Develop a Plan of Action and Milestones in the Agency’s security
                weakness tracking system (ASSERT database) for all noted deficiencies.

         We recommend that the Office of Water (OW) Information Security Officer:

            4.	 Conduct a review of the information security oversight processes within
                OW and develop and implement a plan to implement needed process
                improvements.

Agency Comments and OIG Evaluation
         The Office of Water (OW) agreed with our finding that the Safe Drinking Water
         Information System (SDWIS) had not undergone a risk assessment and the office
         indicated that it has plans to complete the assessment. OW did not agree that
         SDWIS’ security plan did not accurately reflect the system’s appropriate
         operational status, citing differences between how OW and the EPA’s Chief
         Information Officer define a “production” system. OW contends that at the time
         of our review, SDWIS did not have substantiated data in the system and provided
         additional detail regarding SDWIS’ implementation. We modified the report to
         update the section related to SDWIS’ operational status and to reflect efforts OW
         took to address the findings.



                                         5

OW did not agree with our finding that SDWIS did not have a contingency plan
and provided additional information on the system’s plan. Although OW
documented some contingency planning information, our research disclosed that
the information provided was not fully developed as required by Federal and
Agency requirements. OW’s complete response is in Appendix A.




                               6

                                                                                     Appendix A

                  Agency Response to Draft Report
MEMORANDUM

SUBJECT:       Draft Audit Report Information Security Series: Security Practices
               Safe Drinking Water Information System
               Assignment No. 2005-000661

FROM:          Benjamin H. Grumbles
               Assistant Administrator, Office of Water

TO:            Rudolph M. Brevard
               Director, Information Technology Audits


        Thank you for the opportunity to respond to the draft Audit Report on Security Practices
pertaining to the Safe Drinking Water Information System (SDWIS). While we found your
review instructive relative to the requirements of the Federal Information Security Management
Act (FISMA), we believe that your draft Audit Report gives a misleading picture of the security
of SDWIS at the time of your review.

         At the time of your review, the Office of Water (OW) had in place approved security
plans consistent with the status of the various system components. As you know, OW has been
modernizing the entire SDWIS data flow since 2001, and that modernization was still underway
at the time you conducted your review. Key points that I believe conflict with your office’s
evaluation include:

       Even though SDWIS/Federal (the system in use at the time of your review) and
       SDWIS/Operational Data System (ODS) (the system under development) were operating
       in parallel, the data in SDWIS/ODS were test data and were not available to the public,
       peers, educational institutions or other federal agencies. These data were strictly for test
       purposes, and were maintained in separate test environment. Hence the SDWIS/ODS
       was under development as described in the OW security plan.

       OW defines “production” differently than the Office of Environmental Information
       (OEI). OEI defines a system as in “production” when the relevant server is connected to
       the network. However, OW does not consider a system to be in production until we have
       substantiated data that we can provide to our peers. In the case of SDWIS/ODS, at the
       time of your review, OW did not have substantiated data in the system, and thus we did
       not consider the system to be in production.

       The SDWIS security plan in place at the time of your review appropriately covered
       SDWIS in its status of “under development, and included a contingency planning
       process.


                                                7

        I would also like to note that at the time of your review, OW was also responding to the
Office of Management and Budget’s Capital Planning and Investment Control (CPIC) review of
SDWIS. The CPIC review highlighted the need to conduct a risk assessment, and to prepare and
implement a risk management plan for all aspects of SDWIS. We are in the process of
completing that assessment now and expect to be finished in March 2006. In addition, as
required by FISMA, OW has been conducting a self-assessment of SDWIS. The results of this
self assessment will be documented in the Agency’s Automated Security Self Evaluation and
Remediation Tracking (ASSERT) system. Along with the self-assessment, Plans of Actions and
Milestones will be documented in ASSERT. OW expects to complete this effort by the end of
March 2006. The information in ASSERT will be used by OW for continuous monitoring of the
overall security of SDWIS, in keeping with the use of ASSERT as the Agency’s standard for
implementing continuous security self-assessments. For example, OW undertakes tabletop
exercises, and documents the results of those exercises in ASSERT, as part of our annual
contingency planning.

       We look forward to continuing to work with you and your staff on these important issues.
We will also be sending you under separate cover a more detailed set of technical comments for
your consideration. If you or your staff have any questions regarding this response, please
contact Steve Heare, Director, Drinking Water Protection Division, at 202-564-7992 or Terry
Howard, OW Information Security Officer, at 202-564-0385.




                                               8

                                                                            Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Water
Acting Assistant Administrator for Environmental Information
Acting Director, Technology and Information Security Staff
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Technology and Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                              9

